               SBA SMALL BUSINESS PROCUREMENT AWARDS 

               ARE NOT ALWAYS GOING TO SMALL BUSINESSES 


                                  REPORT NUMBER 5-14 


                                    FEBRUARY 24, 2005 





This report may contain proprietary information subject to the provisions of 18 USC 1905 and must
not be released to the public or another agency without permission of the Office of Inspector
General.
                   U.S. SMALL BUSINESS ADMINISTRATION 

                       OFFICE OF INSPECTOR GENERAL 

                           WASHINGTON, D.C. 20416



                                                                OIG REPORT

                                                         Issue Date: February 24, 2005
                                                         Report Number: 5-14




TO:           Allegra McCullough
              Associate Deputy Administrator for Government
               Contracting and Business Development


FROM: 	       Robert G. Seabrooks
              Assistant Inspector General for Auditing

SUBJECT: 	 SBA Small Business Procurement Awards are not Always Going to Small
           Businesses

        At the request of the Ranking Member of the United States Senate Committee on
Small Business and Entrepreneurship, the Office of Inspector General (OIG) conducted
an evaluation to determine whether small business procurement awards reported by the
Small Business Administration (SBA) in Fiscal Years (FY) 2001 and 2002 were indeed
awarded to companies that were small at the time of the award. The OIG further
examined issues related to small business government contracting. This report presents
the results of our evaluation and is being forwarded to the Committee.

                                       PURPOSE

       The purpose of this evaluation was to:
   1.	 determine whether small business procurement awards reported by SBA in FY
       2001 and FY 2002 were indeed awarded to companies that were small at the time
       of the award; and
   2.	 evaluate issues related to small business government contracting.

                                     BACKGROUND

        With passage of the Small Business Act of 1953, Congress voiced its conviction
that the Federal Government should “aid, counsel, assist, and protect … the interests of
small-business concerns … to insure that a fair proportion of the total purchases and
contracts or subcontracts for property and services for the Government … be placed with
small business enterprises.” To support this proclamation, Congress sets government-
wide procurement goals for participation by small business concerns. While each Federal
agency has its individual small business procurement goals, the overall goal is “23
percent of the total value of all prime contract awards for each fiscal year.” Within the 23
percent, there are also government-wide goals for different categories of small business,
such as HUBZone and women-owned businesses. The SBA’s Office of Government
Contracting and Business Development’s (GC&BD) responsibility is to ensure that all
agencies set annual goals (for all of the small business categories) that cumulatively will
meet the government-wide goals.

        GC&BD further aids small business by administering programs, such as the
Section 8(a) Business Development Program [8(a) BD Program] and the Small
Disadvantaged Business Certification Program, that offer support for federal contractors.
The SBA is also responsible for establishing numerical small business size standards on
an industry-by-industry basis under the North American Industry Classification System
(NAICS). NAICS codes are essential to small business contracting because it is through
the NAICS code listed in a solicitation that offerors can appropriately represent
themselves as small or large business concerns. While the Small Business Act defines a
small business as one “which is independently owned and operated and which is not
dominant in its field of operation,” the distinctions are complex. Overall, small business
size standards can range from $750,000 to $28.5 million in average annual sales and from
100 to 1,500 in number of employees. Several SBA programs have either alternative or
unique size standards.

                                METHODOLOGY & SCOPE

         To determine whether small business procurement awards reported by SBA were
indeed awarded to companies that were small at the time of the award, we selected for
initial review the ten highest dollar value awards from October 1, 2000 to September 30,
2001 that were reported as going to small business and the ten highest dollar value
awards from October 1, 2001, to June 30, 2002, that were reported as going to small
business. From the original list of 20, 6 awards were selected for closer study. The
dollar amounts of the six procurements ranged from $844,000 to over $28 million, and
totaled over $36 million.

        The major sources of data for the six in-depth reviews were the procurement files
provided by SBA’s Office of Procurement and Grants Management (OPGM). Data from
the files reviewed included, but was not limited to, (1) the award date; (2) the award’s
NAICS code; and (3) the size standard for the respective NAICS codes.

       As the protector of small business interests, SBA should be taking the lead in
ensuring that businesses that are legitimately small are receiving government contracts.
Thus, we sought evidence of whether SBA attempted to obtain current size information
from either the business itself or other reputable sources. It is important to note,
however, that all of the cases under review were task orders from multiple award
contracts [i.e., five were from the General Services Administration’s (GSA) Schedules



                                             2

and one was from a National Institute of Health (NIH) government-wide acquisition
contract (GWAC)]. As ordered by the Federal Acquisition Regulation1 (FAR), an agency
can rely on the small business representations made by the contractors at the Schedules
contract level. Thus, SBA was not obligated to ensure that the companies were actually
small at the time of the procurements, but it could have.

        In determining whether a company was small for the particular procurement, we
compared the company’s size at the time of the award to the size standard for the award’s
NAICS code. We used the NAICS code reported in the Federal Procurement Data
System (FPDS) because, at the time of the procurements under study, FPDS was the
official source for information on federal government contract actions. For the four
companies that were in the 8(a) BD Program at the time of review, information was
obtained from SBA’s SACS/MEDCOR2 database. The fifth case concerned a company
that had been purchased by a larger firm shortly after the original procurement in 1996;
size information was obtained from the parent company’s annual reports, available on the
Internet. For the sixth case, an order from an NIH GWAC, we relied on the company’s
self-certification to NIH that it was large as of 2000.

       In addition to the contract files, relevant regulations including the FAR, the Code
of Federal Regulations3 (CFR), the Small Business Act (P.L. 85-536) and other laws were
reviewed. For clarification, we conducted interviews with SBA and other Federal agency
personnel.

                      FINDING: LARGE BUSINESS CONTRACT ACTIONS

                      WERE REPORTED AS SMALL BUSINESS AWARDS


        The SBA awarded four of the six high dollar procurements, reported as small
business procurements, to large companies at the time of the procurements. This
occurred because SBA utilized multiple award contracts, which do not require that
agencies obtain current size certifications, and did not ask contractors for an updated size
certification. Regulations provide that a contractor self-certify its size when responding
to a solicitation. At the time of the procurements under study, that size certification
remained valid throughout the life of the contract, unless a procuring agency requested an
updated certification. Because contracts can be active for many years, companies may
become large, and an agency can still obtain credit for small business procurement.
Because SBA is the protector of small business, we believe SBA should avoid “small
business” procurements with large businesses, even though the regulations permit such a
practice.

       In reviewing this issue, we noted a variety of problems with small business
procurement practices.



1
  CFR, Title 48, Federal Acquisition Regulations System
2
  Servicing and Contracts System/Minority Enterprise Development Central Office Repository
3
  CFR, Title 13, Business Credit and Assistance


                                                  3

   A. Small Business Contracting Regulations

       Various regulations emerged as possible reasons for the confusion surrounding
the awarding and reporting of small business awards. These include “life of the contract”
allowances due to purchases from multiple award vehicles and inconsistencies between
the FAR and the Small Business Act.

       1. Life of the Contract

        When SBA awarded the procurements in this evaluation, a multiple award vehicle
(e.g., Schedules contracts and GWACs) regulation allowed a contractor to retain its small
business size status for the initial 5-year term and subsequent option periods of the
contract, which could extend the contract for another 15 years. Thus, a contractor
remained “small” for the life of the contract even if it outgrew the size standard, merged
with a large company or was purchased by a large company.

        The four procurements that went to large companies at the time of procurement
fell under this regulation. In one case, the company certified that it was small when it
submitted an offer for a GSA Schedules contract, but a month after it was awarded the
contract the company was bought by a larger company. This transaction was publicly
disclosed as the parent company’s Web site indicated its ownership of the company under
review. In another case, the company was small when it was originally awarded an NIH
GWAC in 1996. However, by the time of the specific SBA action (2002), the company
had reported to NIH that it was not a small business, and the information was displayed
on NIH’s Web site. The two other cases simply exceeded the size standards for their
contracts – one company surpassed the size standard by more than $4.5 million, and the
other company had more than double the maximum average annual sales allowed.
Nevertheless, the life of the contract regulation allowed these high dollar procurements
that were awarded to large businesses to be reported as small business awards. In all four
of these cases, we found no evidence that SBA attempted to obtain current size
information.

         In May 2003, GSA, the Office of Management and Budget (OMB) and SBA
testified before the House Small Business Committee regarding their proposed regulation
changes to resolve this situation. First, a GSA representative acknowledged that many
complaints regarding large businesses receiving federal contracts intended for small
businesses involved awards made through schedules and GWACs. Noting the life of the
contract regulation as a problem, the speaker stated that as of March 1, 2003, GSA
implemented a new policy requiring “re-representation of business status at contract
renewal, i.e., prior to exercise of the contract option period.” However, this new
requirement still allows a company that outgrows its size standard to continue to qualify
as small for up to 5 years.

         OMB and SBA both testified regarding their intent to require annual re-
certification. OMB’s Office of Federal Procurement Policy (OFPP) representative
testified that the four agencies (GSA, NIH, the Department of Commerce, and the



                                            4

National Aeronautics and Space Administration) that administer GWACs were instructed
“to develop schedules identifying when their small business GWAC contractors will
begin annual certification of their size status.” The SBA representative assured the
Committee that SBA “takes very seriously its responsibility for ensuring that only small
businesses obtain Federal contracts . . . intended for small businesses.” He further stated
that SBA had proposed a rule to require annual re-certification of small business status
for contractors operating under any multiple award contracts.

        As of October 2004, only GSA had implemented a re-certification policy. The
SBA had not reached a decision on its proposed annual re-certification rule, and in June
2004, OFPP decided not to pursue a separate annual re-certification policy for GWACs.
Instead, OFPP advised GWAC agencies that they would be held to the re-certification
cycle specified by SBA.

         While a decision on annual re-certification had not been made, in May 2004, SBA
agreed to implement an OIG recommendation (see Audit Report Number 4-16,
http://www.sba.gov/ig/4-16.pdf) for SBA procurements that requires Schedules
contractors classified as small businesses to certify their size for task orders exceeding
$500,000 to ensure that they meet applicable size standards. Furthermore, SBA changed
the regulation allowing companies purchased by large businesses to continue to be
considered small. The SBA implemented a final rule stating that in the case of a small
business being purchased after December 21, 2004, the new entity must self-certify its
size at the time of novation.

       2. Inconsistent Regulations

        There are inconsistencies in the regulations that could affect small business
procurement. Both the Small Business Act and the FAR state that acquisitions exceeding
$2,500 but not greater than $100,000 are “reserved exclusively for small business
concerns” with one exception. The Small Business Act exception reads: “unless the
contracting officer is unable to obtain offers from two or more small business concerns.”
The FAR exception reads: “unless the contracting officer determines there is not a
reasonable expectation of obtaining offers from two or more responsible small business
concerns.” This difference can be interpreted to mean that, according to the Small
Business Act, the contracting officer must at least attempt to award the contract as a set-
aside. If two or more competitive offers are not received, then the award does not have to
be reserved for a small business. The FAR on the other hand allows the contracting
officer to avoid the set-aside based solely on the “reasonable expectation” that two or
more competitive offers from small business concerns will not be received. The SBA’s
exception offers small businesses greater protection.

   B. GSA Schedules Problems

       With two major legislative efforts, the Federal Acquisition Streamlining Act of
1994 (FASA) and the Clinger-Cohen Act of 1996, Congress established new acquisition
vehicles, such as multiple award contracts, which can be accessed through the GSA



                                             5

Schedules, and GWACs, which can be accessed through GSA GWAC Centers. The
purpose of these vehicles is to streamline and simplify the procurement process and get
the best possible price for products and services. All federal agencies are encouraged to
use these vehicles rather than issuing new contracts. When an agency purchases from a
small business on the Schedules, it can count the procurement towards its small business
procurement goals.

        There are three areas that are a cause for concern when purchasing from small
businesses on the Schedules: (1) size self-certifications, (2) the avoidance of small
business set-asides and other rules, and (3) data quality. Because part of SBA’s mission
is to protect the interests of small businesses by ensuring that a fair proportion of
Government purchases are placed with small businesses, these concerns need to be
addressed.

        The first problem involves how businesses self-certify their size for GSA
Schedules contracts. Using the FAR’s “Offeror Representations and Certifications-
Commercial Items” provision in solicitations, GSA requests that an offeror represent
whether it is a small business concern or not. However, these solicitations are not always
clearly associated with a specific NAICS code and corresponding small business size
standard. While some GSA Schedules solicitations involve only one NAICS code, other
solicitations can contain either numerous NAICS codes or no NAICS code at all. Further
complicating the matter is that, according to a GSA official, when numerous NAICS
codes are included in an offer, offerors are expected to primarily self-certify their size to
the code which accounts for the greatest percentage of contract value. This contradicts
SBA’s CFR, which states, “If a procurement calls for two or more specific end items or
types of services with different size standards and the offeror may submit an offer on any
or all end items or types of services [which is the case with some GSA Schedules
solicitations], the offeror must meet the size standard for each end item or service item
for which it submits an offer.”

        This problem has two consequences. First, GSA is possibly allowing contractors
to self-certify as small when they may not meet the size standards for every item or
service for which they submit an offer. Second, because the FAR directs purchasing
agencies to “rely on the small business representations made by schedule contractors at
the contract level,” agencies will receive credit for purchasing from a “small” company
even if the company is not small for the product/service actually being provided.

        The second problem with using the Schedules for small business purchases is that,
in simplifying the acquisition process, regulations [e.g., Part 19 (Small Business
Programs) of the FAR] meant to provide small businesses with “maximum practicable
opportunities” to participate in Federal Government procurement no longer apply.
Particularly worrisome is the fact that the Schedules allow agencies to award “pseudo-
set-asides” and gain credit for small business purchases without having to follow SBA’s
rigorous small business set-aside regulations. One of our cases illustrates this point. In
October 2000, SBA’s OPGM issued a solicitation for a Blanket Purchase Agreement




                                              6

(BPA)4 to three 8(a) firms with current GSA Schedules contracts. The solicitation stated,
“This [Information Systems Support] ISS BPA is intended as an 8(a) set-aside.” OPGM
decided to award BPAs to all three firms, but prior to awarding the BPAs, a legal review
pointed out that “because they were not set-aside for 8(a) competition as provided for in
SBA’s regulations” the BPAs could not be referred to as 8(a) set-asides. Other
correspondence also indicates that OPGM was overly concerned with obtaining
“permission to count awards made against the BPA towards the agency’s 8(a) goals,”
which was eventually received.

        Although the awards counted towards the Agency’s 8(a) goal, at least one of the
firms exceeded the contract’s size standard at the time of award. Because OPGM went
through the Schedules instead of establishing legitimate set-asides, where the firm would
have had to certify its size in response to the solicitation, the award counted towards the
Agency’s small business goals even though the firm was not small. While SBA was not
obligated to verify a contractor’s size when purchasing from the Schedules, it could have,
and for all of the cases, current size information was readily available:

    •	 Four cases were in the 8(a) BD Program; thus, size information was available in
       SBA’s SACS/MEDCOR database.
    •	 The fifth case concerned a company that had been purchased by a large company;
       this information was available on both companies’ Web sites.
    •	 For the sixth case, size information could be found on NIH’s Web site.

It would only have taken “a short amount of time” to find this information. If SBA had
put as much effort into verifying whether the company currently met the award’s size
standard as it put into trying to find ways to earn credit towards its small business goals,
then perhaps the contract action would have been awarded to a company that was
legitimately small at the time of award, and SBA would have protected small business
interests as well as worked towards achieving its procurement goals.

        Other set-aside regulations that do not apply to purchases off the Schedules
include the non-manufacturer and 50 percent rules. In two of our cases, not only were the
companies not small at the time of the award, but SBA was able to purchase the products
of large companies (e.g., Gateway, Compaq, Microsoft, etc.) through “small” companies
because the non-manufacturer rule5 does not apply to the Schedules. The Agency
received credit towards its small business goals for these procurements. Another rule that
did not apply in one of our cases is the 50 percent rule, which states that in order to be
awarded a small business set-aside contract or an 8(a) contract for services, the small
business concern must agree to perform at least 50 percent of the cost of the contract
incurred for personnel with its own employees. The OIG in a previous report (see Audit
Report Number 4-16, http://www.sba.gov/ig/4-16.pdf) determined that the company,

4
  A BPA is a simplified purchasing method that establishes a “charge account” with a contractor in order to
easily purchase supplies or services that are needed repeatedly.
5
  13 CFR 121.406 states that for small business set-asides or 8(a) contracts where the contractor is a
wholesaler or retailer who normally sells the supplied items, these items must be manufactured or
processed by a domestic small business concern, and the firm must not exceed 500 employees.


                                                     7

which was small at the time of the award, only performed 39 percent of the cost of labor
with its own employees. In these cases, the fact that these rules do not apply worked
against protecting the interests of small business while at the same time garnering the
Agency credit towards its small business goals.

       The third problem encountered with the Schedules is that information supplied by
GSA is not always accurate. For instance, one case involved an 8(a) firm whose
Schedules profile did not note that the company was in the 8(a) BD Program. This error
possibly cost the company small business awards.

   C. Source List Difficulties

        PRO-Net, SBA’s Internet-based database with information on small,
disadvantaged, 8(a), and women-owned businesses was meant to be used by small
businesses as a marketing tool and by contracting officers and prime contractors as a
search engine. However, there was concern that large firms were incorrectly self-
certifying themselves as small. This concern was supported by the fact that SBA purged
from PRO-Net over 300 large companies that had incorrectly self-identified as small
businesses. Of the four cases in this evaluation that were not small, two had size
information listed in their PRO-Net profiles that indicated that they were small for the
awards’ NAICS codes.

        In the aforementioned House Committee hearing, an SBA official noted that
“PRO-Net . . . does serve as the authoritative source of eligibility information on firms
certified by the SBA” under the 8(a) BD, HUBZone and Small Disadvantaged Business
Programs. However, indicating some awareness of the problems with PRO-Net, the same
official added that the database was not intended to validate eligibility, but rather was to
be used “for preliminary identification of qualified small business vendors.” The
testimony continued, “A contracting officer cannot assume nor is there guidance that
suggests that a business listed on PRO-Net is an eligible small business for a specific
procurement.” This testimony is refuted by SBA’s SOP 60 02 6, which encourages
procurement representatives to use PRO-Net “to match small business firms to the
solicitation’s requirements.”

        In the continuing effort to simplify the procurement process, SBA partnered with
the Department of Defense (DOD), OMB and GSA to integrate PRO-Net’s function as
the authoritative source for vendors that are certified in SBA's 8(a) BD, HUBZone and
Small Disadvantaged Business Programs with DOD’s Central Contractor Registration
(CCR). The integration began on January 1, 2004, creating one database for entering and
searching small business sources. Yet, problems remain.

        First, companies registering with CCR are initially allowed to self-certify as
“small,” “8(a),” “HUBZone,” etc. The SBA routinely receives updated data from CCR,
and the data is processed through an internal database that calculates whether companies
are small and verifies whether they are certified in preference programs. The results are
then transferred back to CCR. If the calculations/verifications show that a company is



                                             8

small/in a preference program, the company is placed in CCR’s “Dynamic Small
Business Search.” If the calculations/verifications show that the company is not small,
no changes are made to the information the company self-certified, and the company can
be found through the main “CCR Search.” Thus, through the “CCR Search,” one can
find companies that incorrectly self-certified as small or as being in preference programs.
This leads to the second problem.

        On the old PRO-Net Web page, contracting officers are instructed to rely on the
“Dynamic Small Business Search” when looking for vendors that are certified in SBA's
8(a) BD, HUBZone and Small Disadvantaged Business Programs. However, there are
several search options at the CCR Web site, and it is not prominently displayed that the
“Dynamic Small Business Search,” as opposed to other search options, is required to
ensure that SBA has calculated/verified the size/status of each business. Furthermore,
there is no guidance in the FAR regarding the “Dynamic Small Business Search.”

                                       CONCLUSION

       Of the six high dollar procurements we evaluated, four awards went to companies
that were not small at the time of the specific purchase by SBA. While determining
whether these small business procurement awards were indeed awarded to companies
that were small at the time of the award, several important issues related to small business
government contracting emerged. Between various problems with the GSA Schedules,
inconsistent regulations, and incorrect data in source lists, we discovered that there are
many factors affecting whether a small business procurement is awarded to a small
business or to an “other than small business.”

       Like all areas of federal procurement, issues related to small business awards are
very complex, and resolving these issues is not a simple task. However, the following
recommendations should resolve some of these issues.

                                   RECOMMENDATIONS

       We recommend that the Associate Deputy Administrator for Government
Contracting and Business Development take the following actions:

(1) Finalize the proposed SBA rule under which a firm that receives a multiple award
    contract must certify annually on the anniversary date of the contract award that it
    continues to be a small business for all relevant size standards.

(2) Coordinate with the FAR Council to resolve the set-aside exception inconsistency in
    the regulations. The SBA should ensure that the language in the Small Business Act
    is implemented in the FAR.

(3) Work with GSA to ensure that small business representations in response to GSA
    Schedules contract solicitations are following size eligibility requirements for
    government procurement, specifically that “if a procurement calls for two or more



                                             9

   specific end items or types of services with different size standards and the offeror
   may submit an offer on any or all end items or types of services, the offeror must meet
   the size standard for each end item or service item for which it submits an offer” (13
   CFR § 121.407).

(4) Work with the FAR Council to require compliance with set-aside regulations on
    multiple award vehicle (i.e., Schedules and GWACs) purchases when agencies limit
    their requests for quotations to small businesses.

(5) Continue working with DOD and GSA to modify CCR so that (1) the small business
    and preference program self-certify buttons are removed, and (2) contracting officers
    are clearly advised that small businesses can only be found through the “Dynamic
    Small Business Search.”

                               THE AGENCY’S RESPONSE

        The Agency agreed with Recommendations 1, 2 and 5 and plans to take actions in
the near future that will address these recommendations. While Recommendation 3
refers to small business representations at the establishment of a GSA Schedules contract,
the Agency’s response focuses on the designation of small business status on task orders.
The Agency states, “We agree that SBA and GSA need to discuss the designation of
small business status on orders, and possibly initiate a FAR case to clarify how NAICS
codes apply to orders from these contract vehicles.” In regards to Recommendation 4,
the Agency disagreed by concluding that “on unrestricted contracts and orders against an
unrestricted contract, set-aside provisions do not apply.” See Appendix 1 for the full text
of the Agency’s response.

                    OIG EVALUATION OF THE AGENCY’S RESPONSE

       Since the Agency agreed with Recommendations 1, 2 and 5, we have limited our
evaluation to the points of disagreement. We modified Recommendation 2 to state that
SBA should coordinate with the FAR Council rather than GSA.

         On Recommendation 3, we disagree with the Agency’s focus on the designation
of small business status on orders from the GSA Schedules. The Agency states, “GSA
has not clearly implemented a process by which to designate the small business status of
a contractor on an order.” However, there is a clear process for designating the small
business status of a contractor on an order – if a contractor is awarded a GSA Schedules
contract as a small business (and/or any other variation of “small business,” such as
“SBA Certified 8(a) firm”), then all subsequent orders will be classified as “small
business” awards. The process that GSA has not clearly implemented is how to classify a
contractor as “small” when establishing the original GSA Schedules contract. If GSA
properly follows SBA’s size eligibility requirements for government procurement, which
it is not currently doing, then the small business status of all orders and the NAICS code
flowing from a Schedules contract will be designated correctly. To clarify our




                                            10

recommendation, we modified it to refer to small business representations in response to
GSA Schedules contract solicitations.

        Regarding Recommendation 4, the FAR defines a small business set-aside as “the
reserving of an acquisition exclusively for participation by small business concerns.” We
found that, by definition, agencies are electing to “set-aside” procurements for small
businesses on the GSA Schedules by issuing requests for quotations restricted to small
businesses. Although the FAR states that FAR Part 19 (Small Business Programs) does
not apply to orders from a Schedules contract, some guidance to govern these “set-
asides” that are being conducted through the Schedules is needed. To make
Recommendation 4 more specific, we modified it to specifically state that compliance
with set-aside regulations should be required when agencies limit their requests for
quotations to small businesses. We also modified the recommendation to state that SBA
should coordinate with the FAR Council rather than GSA.

                                   ÕÕÕÕÕ
       The recommendations in this report are based on the conclusions of the OIG. The
recommendations are subject to review, management decision and action by your office
in accordance with existing Agency procedures for follow-up and resolution.

        Please provide us your management decision for each recommendation within 30
days. Your management decisions should be recorded on the attached SBA Forms 1824,
“Recommendation Action Sheet,” and show either your proposed corrective action and
target date for completion, or explanation of your disagreement with our
recommendations.

       Should you or your staff have any questions, please contact Robert G. Hultberg,
Director, Business Development Programs Group at 202-205-[FOIA Ex. 2].


Attachments




                                           11

                                                                                                               APPENDIX 1




                                                   U.S. SMALL BUSINESS ADMINISTRATION
                                                             WASHINGTON, D.C. 20416
                         DATE:         February 1, 2005
                            TO:        Robert G. Seabrooks
                                       Assistant Inspector General for Auditing
                        FROM:          Allegra F. McCullough
                                       Associate Administrator for Government Contracting and Business Development
                    SUBJECT:           Response to the Inspector General Draft Report entitled "SBA Small business
                                       Procurement Awards are not Always Going to Small Business"


        The Inspector General’s Office recently completed a review of the contracts awarded by SBA’s Office of
Procurements and Grants Management between October 1, 2000 and September 30, 2002. Of the twenty contracts
reviewed, six of the awards ranging from $844,000 to $28 million were selected for further study. The IG states that all of
the cases reviewed were “task orders from multiple award contracts (i.e., five were from General Service Administration
(GSA) Schedules, and one was from a National Institute of Health (NIH), government-wide acquisition contract
(GWAC).” Four companies were SBA 8(a) Program Participants, one company was acquired by a larger company and
one company’s size status was determined from the information given to NIH by the small business contractor.

        We have reviewed the IG’s Report and offer the following responses to the recommendations.

(1) Finalize the proposed SBA rule under which a firm that receives a multiple award contract must certify annually on
the anniversary data of the contract award that it continues to be a small business for all relevant size standards.

         We are currently finalizing the proposed rule under which a firm must recertify its size on long-term multiple
award contracts, multiple award schedule contracts and government-wide acquisition contracts. We expect to send the
final regulation to the Office of Management and Budget for review and clearance by February 28th.

(2) Coordinate with GSA and resolve the set-aside exception inconsistency in the regulations. SBA should ensure that
the language in the Small Business Act is implemented in the FAR.

        We will initiate a Federal Acquisition Regulation (FAR) case through the FAR Council, to revise FAR 19.502-2
“Total small business set-asides”, to reflect the statutory requirements of 15 U.S.C 644(j).

(3) Work with GSA to ensure that small business representations are following size eligibility requirements for
government procurement, specifically that “if a procurement calls for two or more specific end items or types of services
with different size standards and the offeror may submit an offer on any or all end items or types of services, the offeror
must meet the size standard for each end item or service item for which its submits an offer” (13 CFR § 121.407).

        GSA schedules identify NAICS codes by specific item numbers (SINS). However, GSA has not clearly
implemented a process by which to designate the small business status of a contractor on an order. The small business
size regulations do allow multiple NAICS on contracts where an offeror may submit a bid on one or more items. This
approach is not entirely appropriate for GSA schedules. We agree that SBA and GSA need to discuss the designation of
small business status on orders, and possibly initiate a FAR case to clarify how NAICS codes apply to orders from these
contract vehicles.

(4) Work with GSA to require compliance with set-aside regulations on Schedule purchases when agencies are claiming
credit towards their small business goals.
        In order to set-aside a contract for small business participation, a contracting officer must assure that a small
business offering a product that it did not manufacture, “furnishes in the performance of the contract, the product of a
small business manufacturer or producer. The end product furnished must be manufactured or produced in the United
States or its outlying areas” [ FAR 19.102(f)]. FAR 19.102(f) also contains provisions for the contracting officer to
request waivers to this requirement prior to the issuance of a solicitation. The statutory authority for SBA to issue a
waiver to this requirement can be found at 15 USC 637 (a)(17). SBA’s Office of Government Contracting periodically
reviews requests from contracting activities to waive the provisions of the “non-manufacturer rule.” Where SBA grants a
request to waive that requirement, agencies reporting awards to small “non-manufacturers” are in compliance with the
contract goaling reporting requirements. On unrestricted contracts and orders against an unrestricted contract, set-aside
provisions do not apply.

(5) Continue working with DOD and GSA to modify CCR so that (1) the small business and preference program self-
certify buttons are removed, and (2) contracting officers are clearly advised that small businesses can only be found
through the “Dynamic Small Business Search.”

         In April 2005, the self-certification of 8(a), HUBZone and SDB will be deactivated on CCR. These certification
fields in CCR will be populated only by the SBA.

        The CCR small business representation will also be removed and replaced by an automated check conducted by
SBA. Through the Dynamic Small Business Search (DSBS), a registrant’s employment and revenue information will be
compared to the size standard(s) for the NAICS code(s) identified for its business. CCR will list which NAICS codes the
business qualifies as a small business. A contracting officer will be able to search for small businesses either through the
DSBS and CCR.
                                                                                                            APPENDIX 2 


                                                      REPORT DISTRIBUTION

Recipient                                                                                   No. of Copies

Administrator …………………………………………………………...                                                          1


Deputy Administrator …………………………………………………...                                                      1


Assistant Administrator for Administration ..............................................        1


Deputy Associate Deputy Administrator for Government Contracting 

and Business Development………………………………………………                                                       1


Office of the Chief Financial Officer 

Attention: Jeffrey Brown………………………………………………...                                                    1


General Counsel………………………………………………………….                                                           3


U.S. Government Accountability Office...……………………………….                                            2

